<html>
<title> - THREAT CONVERGENCE AT THE BORDER: HOW CAN WE IMPROVE THE FEDERAL EFFORT TO DISMANTLE CRIMINAL SMUGGLING ORGANIZATIONS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
THREAT CONVERGENCE AT THE BORDER: HOW CAN WE IMPROVE THE FEDERAL EFFORT 
             TO DISMANTLE CRIMINAL SMUGGLING ORGANIZATIONS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2005

                               __________

                           Serial No. 109-75

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-850                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2005....................................     1
Statement of:
    Stana, Richard M., Director, Homeland Security and Justice, 
      U.S. Government Accountability Office, accompanied by Dan 
      R. Burton, Assistant Director, Homeland Security and 
      Justice....................................................    20
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    10
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Stana, Richard M., Director, Homeland Security and Justice, 
      U.S. Government Accountability Office, prepared statement 
      of.........................................................    23
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    16


THREAT CONVERGENCE AT THE BORDER: HOW CAN WE IMPROVE THE FEDERAL EFFORT 
             TO DISMANTLE CRIMINAL SMUGGLING ORGANIZATIONS?

                              ----------                              


                         TUESDAY, JULY 12, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, Watson, 
Ruppersberger, Foxx, Sanchez, and Norton.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Pat DeQuattro, congressional fellow; Malia Holst, 
clerk; Tony Haywood, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mr. Souder. The subcommittee will come to order.
    Good afternoon, and thank you all for coming. This hearing 
will continue the subcommittee's ongoing study of how criminal 
smuggling organizations have impacted our ability to secure our 
borders. Today's hearing is a followup to the June 14th hearing 
concerning smuggling organizations that are capable of 
transporting not only drugs, but also aliens, terrorists and 
weapons.
    Mr. Richard Stana, of the Government Accountability Office, 
the investigatory arm of Congress, will help us understand the 
resource, management and legal gaps that frustrate our efforts 
of the dismantling of these organizations. His testimony will 
bring further clarity to the organization and efforts of the 
U.S. Customs and Border Protection and U.S. Immigration and 
Customs Enforcement to address the critical issue of alien 
smuggling.
    It is critically important that the Department of Homeland 
Security and Congress address these issues. This subcommittee 
is very anxious to review the administration's ``Second Stage 
Review'' process and the impact it will have on the agencies 
and missions that we are discussing today.
    Smuggling pipelines used by unauthorized aliens and 
criminals seeking to enter the United States could also be used 
by terrorists to gain entrance into the United States. It is 
estimated that the international alien smuggling and sex 
trafficking trade generates $9\1/2\ billion for criminal 
organizations worldwide, and the profits are used to finance 
additional criminal enterprises, such as the trafficking of 
drugs, weapons, and other contraband. Nonetheless, it is 
unknown how many people are smuggled into the United States 
each year.
    Most alien smuggling occurs along the U.S.-Mexico border. 
Mexico is a staging area for aliens from Mexico and other parts 
of the world to attempt to illegally enter the United States. 
As the Border Patrol makes it more difficult for smugglers to 
cross at one point along the border, the smugglers move their 
operations elsewhere. The success of Operation Gatekeeper in 
San Diego and Operation Hold the Line in El Paso has been cited 
as one of the causes for the increase in smuggling in the 
Arizona corridor.
    In addition, smuggling organizations are attracted to the 
Arizona corridor because the border terrain is challenging for 
law enforcement; the area is a major transportation hub with a 
highly developed highway system and an international airport; 
the corridor has an extensive staging area comprised of homes, 
hotels and apartments; and the area has a robust financial 
services infrastructure.
    Many policymakers are troubled by the apparent increase in 
the number of organized cartels ferrying people into the 
country illegally. The 9/11 Commission voiced strong concerns 
that terrorists use these human smuggling networks to cross 
borders in order to evade detection at official points of 
entry.
    The Department of Homeland Security is absolutely a crucial 
player in our efforts to secure the borders. When DHS was 
created in March 2003, it combined some of the most important 
border security agencies in the Federal Government: the Border 
Patrol, the former INS and Customs inspectors and agents, and 
the U.S. Coast Guard, all of which represented America's front 
line against smugglers and drug traffickers.
    Although there are certainly other Federal agencies with 
vital roles in our fight to achieve some type of border 
control, DHS, and specifically Customs and Border Protection 
[CBP], and Immigration and Customs Enforcement [ICE], are 
largely responsible for manning the front lines in this 
mission. ICE is a primary component for investigating alien 
smuggling, combating the smuggling of aliens into the country, 
and the U.S. Border Patrol is the primary front line defender 
between the ports of entry. Without them, we will have little 
or no defense against the smugglers, people or drugs, at our 
borders. It is vitally important that these DHS components be 
fully coordinated and integrated as they attempt to secure the 
borders, and that they be provided the proper tools, resources 
and authorities to do their job.
    The Government Accountability Office recently released a 
study entitled ``Combating Alien Smuggling: Opportunities Exist 
to Improve the Federal Response,'' which provides an in-depth 
review and critique of the current issues that impact U.S. 
alien smuggling enforcement efforts. The alien smuggling issues 
being discussed in this report are not new nor surprising to 
this subcommittee. As a matter of fact, they are the same types 
of issues and challenges that we frequently hear about from DHS 
agencies and law enforcement officials involved in drug 
enforcement and interdiction efforts. Stovepiping of 
responsibilities, limited information sharing and a lack of 
coordinated, cohesive strategy, combined with limited 
resources, are all common critiques.
    Now is the time for Department of Homeland Security in 
general, and Immigration Customs Enforcement and Customs and 
Border Protection, in particular, to establish a strategic 
approach to these problems. It is vitally important that these 
component agencies remain focused and adaptive to various 
threats as they attempt to secure the borders and that they be 
provided the tools and authorities to do their jobs.
    The GAO report which we are discussing today does a good 
job of identifying some of the potential gaps in our current 
alien smuggling enforcement efforts. These gaps must be 
addressed to ensure that work can be done to deal with 
correcting these troubled areas.
    The first and most important issue centers on the strategic 
operating plan that DHS is employing to address this issue. If 
each component agency employs a different operational 
structure, effective interagency cooperation cannot result. 
Intelligence sharing, coordinated investigations and 
operational deconfliction must also be addressed if CBP and ICE 
are to maximize their effectiveness along the borders and 
against smuggling organizations.
    Second, the report discusses an apparent disconnect between 
ICE and Border Patrol. That is, there is no mechanism in place 
for tracking the number and the results of referrals or leads 
made by CBP to ICE for investigation. Without such a mechanism, 
there may be missed opportunities for identifying and 
developing cases on significant alien smuggling organizations.
    This subcommittee has repeatedly discussed the merits and 
problems facing DHS, as agencies like legacy Customs were 
literally split in two. Now may be the appropriate time to ask, 
what are the benefits of an ICE and CBP merger? Merging the two 
agencies may be the most appropriate and necessary means to 
achieve a seamless enforcement effort. Would joining the two 
agencies strengthen our Nation's resolve in the fight against 
illegal smuggling organizations on the southwest border?
    Third, why is the dismantling of alien smuggling 
organizations seemingly a low priority? The primary Government 
agency tasked with immigration smuggling investigations, ICE, 
devoted only 7 percent of all investigative hours in the last 
fiscal year to this issue. This is simply not acceptable. If 
DHS is going to break up alien smuggling organizations, the 
lead investigative agency will need to devote greater resources 
for that specific mission.
    Fourth, what improvements can be made to the existing 
immigration laws that can bring greater priority to alien 
smuggling cases and more effective enforcement and 
prosecutions? The GAO report highlights a concern raised by ICE 
and the Department of Justice regarding the lack of adequate 
statutory civil forfeiture authority for seizing real property, 
such as ``stash'' houses where smugglers hide aliens while 
awaiting payment and travel arrangements to final destinations 
throughout the Nation. Creating human smuggling penalties that 
are parallel with drug smuggling mandatory minimums may serve 
to increase convictions and decrease smuggling events. 
Statutory sentencing guidelines need to be enforced to send the 
message that the current alien smuggling situation is 
unacceptable.
    These issues are all very important and extremely urgent, 
and we look forward to hearing from our witness today about 
ways to improve them. I would like to thank again Mr. Richard 
Stana from the Government Accountability Office for being here 
with us today to discuss this important issue.
    We thank everyone for taking the time this afternoon to 
join us for this important hearing.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T3850.001
    
    [GRAPHIC] [TIFF OMITTED] T3850.002
    
    [GRAPHIC] [TIFF OMITTED] T3850.003
    
    Mr. Souder. Now I will yield to our ranking member, Mr. 
Cummings, for an opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding this important hearing to examine efforts by the 
Department of Homeland Security and other Federal agencies to 
address alien smuggling as one among many serious threats to 
homeland security at the U.S.-Mexico border.
    The smuggling and trafficking of people across the border 
has been a serious problem for many years and was a top 
immigration policy priority even prior to September 11th. But 
September 11th has given new urgency to anti-smuggling efforts.
    As the independent, bipartisan National Commission on 
Terrorist Attacks Upon the United States, also known as the 9/
11 Commission, noted in its July 2004 report on the September 
11th terrorist attacks, ``In the decade before September 11, 
2001, border security-encompassing travel, entry and 
immigration was not seen as a national security matter. Public 
figures voiced concern about the war on drugs, the right level 
and kind of immigration, problems along the southwest border, 
migration crises originating in the Caribbean and elsewhere, or 
the growing criminal trafficking of humans. The immigration 
system as a whole was widely viewed as increasingly 
dysfunctional and badly in need of reform. In national security 
circles, however, only smuggling of weapons of mass destruction 
carried weight, not the entry of terrorists who might use such 
weapons or the presence of associated foreign-born 
terrorists.''
    Today, policymakers and citizens have a greater awareness 
of the prospect that terrorists could enlist the assistance of 
smuggling organizations or otherwise exploit existing 
weaknesses in the U.S. border security to advance deadly 
terrorist objectives.
    The creation of the Department of Homeland Security in 
March 2003 has been viewed as an opportunity to use financial 
investigative techniques to combat alien smugglers by targeting 
and seizing their monetary assets. In particular, the inclusion 
of the legacy Customs Service within the Bureau of Immigration 
and Customs Enforcement [ICE], equips ICE to be a primary 
investigative agency for dismantling criminal organizations 
that engage in the smuggling and/or trafficking of people 
across our borders. Meanwhile, Customs and Border Protection 
plays a vital complementary role as front line enforcer of 
immigration laws at the border.
    Apart from DHS, agencies like ICE, CBP and the U.S. Coast 
Guard, which enforces immigration laws at sea, numerous 
components within the Departments of Justice, State and 
Treasury play important roles in the prosecution and 
investigation of alien smuggling and trafficking, and related 
crimes such as travel document fraud and money laundering. 
International cooperation and assistance, including through 
bilateral U.S. agreements with Mexico and Canada, also is 
crucial.
    In May 2005, GAO issued a report evaluating Federal anti-
smuggling efforts entitled, ``Combating Alien Smuggling: 
Opportunities Exist to Improve the Federal Response,'' the 
report examined the implementation status of DHS' anti-
smuggling strategy and the results of ICE anti-smuggling 
investigations in terms of convictions and seized assets. 
According to the report, roughly 2,400 criminal defendants were 
convicted in Federal district courts under the primary anti-
smuggling statute in fiscal year 2004, and during that year, 
ICE reported seizures totaling $7.3 million from anti-smuggling 
operations. For the first 6 months of fiscal year 2005, ICE 
anti-smuggling investigations yielded $7.8 million in seizures.
    The report also identified two areas in which Federal anti-
smuggling efforts might be improved. GAO found that 
establishing a mechanism for tracking referrals of cases from 
CBP to ICE would help to ensure that investigative leads 
provided by CBP are pursued by ICE, or if ICE resources are 
unavailable, that CBP continues to develop the information for 
further investigation.
    In addition, anti-smuggling prosecutions by the Department 
of Justice could be bolstered by augmenting civil forfeiture 
authority to enable the seizure of real property assets such as 
stash houses used to harbor smuggled aliens before they reach 
their final destinations throughout the United States. Although 
the Justice Department raised the concern about inadequate 
civil forfeiture, the Attorney General had yet to formulate a 
legislative proposal at the time of the report's release.
    Today's hearing offers the subcommittee an opportunity to 
hear from GAO concerning the findings and recommendations set 
forth in the May 2005 report, as well as about any subsequent 
actions taken by DHS and the Justice Department to carry out 
GAO's recommendations.
    Finally, Mr. Chairman, I would like to extend a warm 
welcome to Richard M. Stana, GAO's Director for Homeland 
Security and Justice, who appears before us today. I look 
forward to hearing his testimony.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T3850.004

[GRAPHIC] [TIFF OMITTED] T3850.005

[GRAPHIC] [TIFF OMITTED] T3850.006

[GRAPHIC] [TIFF OMITTED] T3850.007

[GRAPHIC] [TIFF OMITTED] T3850.008

    Mr. Souder. Congresswoman Watson, do you have an opening 
statement?
    Ms. Watson. Yes, thank you so much, Mr. Chairman. I want to 
join with my colleague and thank you for holding this critical 
hearing.
    The Department of Homeland Security contends that in my 
home State of California, we have the largest number of illegal 
immigrants in the Nation. Additionally, it is estimated that 
each year since the end of the Immigration Reform and Control 
Act legalization program in 1988, the undocumented population 
of California has grown by an average of about 100,000. These 
numbers display the fact that human smuggling organizations are 
continuously succeeding in getting people into the United 
States illegally.
    Human smuggling gangs are financially driven and are not 
concerned with the identity of their clients. Terrorists and 
criminals have the ability to utilize these smuggling 
organizations as a ticket into our Nation. Another concern with 
these organizations is the increased violence of rival gangs 
fighting for control of the trafficking routes and clients. 
Some of the gangs have even taken hostages and killed migrants 
in order to deny profit to their competing organizations.
    The process of smuggling is putting the lives of migrants 
and the American people at risk. Human smuggling and 
trafficking gangs must be targeted and we must work to 
effectively dismantle them.
    The ICE organization launched Operation ICE Storm in 2003 
to dismantle the smuggling gangs in Phoenix, AZ. One of ICE 
Storm's objectives is to target money used by these gangs in 
order to weaken their operational yield. Since its inception, 
ICE Storm has seized more than $7.4 million in criminal 
currency, they have seized 302 weapons, 387 defendants have 
been prosecuted and over 8,700 undocumented aliens have been 
detained.
    Furthermore, the crime rate in the Phoenix area has 
dropped, with a significant decrease in smuggling-related 
violence. Programs like these should become widespread so that 
we can combat this problem nationwide.
    After the launch of ICE Storm, the Department of Homeland 
Security introduced the LAX Initiative in June 2004. LAX, as 
you know, is the Los Angeles International Airport. It is a 
significant West Coast transportation hub used by smuggling 
gangs to move migrants across the Nation. The LAX Initiative 
uses ICE investigators and the U.S. Customs and Border 
Protection to operate in various parts of the airport in hopes 
of preventing the service of any human smuggling organization. 
We must continue to support programs like these in order to 
dismantle the remaining criminal human smuggling organizations 
across the Nation.
    Mr. Chairman, I want to thank you again for putting 
together this most important hearing. I would also like to 
thank the witnesses that are here for their willingness to come 
and testify. Thank you.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T3850.009
    
    [GRAPHIC] [TIFF OMITTED] T3850.010
    
    [GRAPHIC] [TIFF OMITTED] T3850.011
    
    [GRAPHIC] [TIFF OMITTED] T3850.012
    
    Mr. Souder. Thank you very much.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record and that any answers to written questions provided by 
the witnesses also be included in the record. Without 
objection, so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members may be included in 
the hearing record, that all Members be permitted to revise and 
extend their remarks. Without objection, it is so ordered.
    Our first and only panel is composed of Mr. Richard M. 
Stana, Director of Homeland Security and Justice, Government 
Accountability Office. Joining Mr. Stana is Mr. Dan R. Burton, 
Assistant Director of Homeland Security and Justice Issues at 
GAO.
    Would you each stand and raise your right hand? As you 
know, it is our standard practice in this committee to swear 
all witnesses in.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative.
    We are not going to have the light on, you are our only 
witnesses today and we want to hear your summary of this 
important report. Just so you know that with the policy 
committee led by John Shadegg and the Speaker, we are trying to 
work out a number of these border issues. This is one of the 
primary ones, which is why we are focusing on your study here. 
It seems to be one of the only documents out there right now 
trying to figure out the larger organizations, rather than just 
arresting individuals here and there, how can we get to the 
larger organizations behind it.
    So thank you for coming today.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED BY 
   DAN R. BURTON, ASSISTANT DIRECTOR, HOMELAND SECURITY AND 
                            JUSTICE

    Mr. Stana. Chairman Souder, Mr. Cummings and members of the 
subcommittee, I appreciate the opportunity to testify today on 
Federal efforts to combat alien smuggling. This transnational 
crime globally generates billions of dollars annually and is a 
significant and growing problem that can pose serious security 
threats to the United States. Although most aliens smuggled 
into the country are seeking economic opportunities, some are 
brought here as part of criminal enterprises. This concern has 
heightened since September 11th.
    The creation of the Department of Homeland Security in 
March 2003 presented new opportunities to more effectively 
combat alien smuggling, particularly by placing in tandem the 
financial expertise of legacy Customs with the immigration 
expertise of legacy INS to target and seize the monetary assets 
of smuggling organizations. Stripping away monetary assets has 
been done with some success in drug trafficking investigations. 
At congressional hearings 2 years ago, ICE officials testified 
that ICE was developing a national strategy to apply this 
technique to alien smuggling investigations. In my oral 
statement, I would like to highlight two points about this from 
our report.
    My first point is that more needs to be done to articulate 
strategy and working relationships. As of last week, the ICE 
strategy for combating alien smuggling had not been finalized. 
ICE officials gave various reasons for this. They said the 
draft strategy was being adjusted to broadly cover all aspects 
of smuggling, including aliens as well as drugs and other 
illegal contraband, and to incorporate lessons learned from 
ongoing follow-the-money approaches such as the one used in 
Operation ICE Storm in Arizona.
    Also, the working relationship of ICE and CBP is still 
evolving. The strategy's effectiveness depends partly on having 
clearly defined roles and responsibilities for these two DHS 
components. In this regard, ICE and CBP signed a memorandum of 
understanding in November 2004 to address their respective 
roles and responsibilities, including provisions for 
information sharing and intelligence.
    However, there is no mechanism in place for tracking the 
number and results of the referrals or leads made by CBP to ICE 
for investigation. Establishing a tracking mechanism could have 
benefits for both agencies. It would help ICE ensure that 
appropriate action is taken on CBP's referrals. Also, CBP could 
continue to pursue certain leads if ICE, for lack of available 
resources or other reasons, cannot take action on the 
referrals. We recommended that DHS establish a referral-
tracking mechanism, and DHS agreed to do so.
    My second point is that although the investigative results 
achieved in terms of seizures of smugglers' monetary assets 
have been modest so far, this approach has potential. In fiscal 
year 2004, about 2,400 criminal defendants were convicted in 
Federal district courts under Section 274 of the INA, which is 
the primary statute for prosecuting alien smuggling. In that 
same fiscal year, ICE reported seizures totaling $7.3 million 
from its anti-smuggling investigations, plus an additional $5.3 
million generated by the State of Arizona under Operation ICE 
Storm.
    For the first 6 months of fiscal year 2005, ICE officials 
reported seizures of $7.8 million, an upward trend. ICE 
officials anticipate increased seizures from alien-smuggling 
investigations in future years, as ICE continues to apply its 
financial expertise. The officials said, however, that there 
are competing demands for investigative resources and also 
noted that alien smuggling cases, in contrast to drug 
trafficking cases, are much less likely to result in large 
seizures of currency.
    But even absent seizures of money or other assets from 
alien smugglers, ICE officials noted the importance of applying 
financial expertise to determine the scope and operational 
patterns of alien smuggling organizations, to identify the 
principals and to obtain evidence to build prosecutable cases.
    Regarding potential forfeitures in alien smuggling cases, 
the Government lacks statutory civil authority for seizing real 
property, such as the stash houses used to facilitate alien 
smuggling. In these cases, the current civil forfeiture 
authority covers only personal property, such as vehicles used 
to facilitate the crime, but not real property, unless it was 
purchased with the proceeds of the crime.
    Justice officials told us that the Department has not 
developed and submitted to Congress a legislative proposal 
because their legislative policy resources have been focused on 
other priorities. We recommended that Justice, in collaboration 
with DHS, consider developing and submitting to Congress a 
legislative proposal, with appropriate justification, for 
amending the civil forfeiture authority for alien smuggling. 
Justice agreed to do this.
    In closing, although our work focused mainly on ICE's and 
CBP's roles in addressing alien smuggling, their investigations 
can involve numerous Federal agencies, as well as the 
cooperation and assistance of foreign governments. 
Opportunities exist to more effectively marshal DHS resources 
in this important task, with the possibility that the 
operations of other agencies would be enhanced as well.
    This concludes my oral statement. Dan Burton and I would be 
happy to address any questions the subcommittee may have.
    [The prepared statement of Mr. Stana follows:]

    [GRAPHIC] [TIFF OMITTED] T3850.013
    
    [GRAPHIC] [TIFF OMITTED] T3850.014
    
    [GRAPHIC] [TIFF OMITTED] T3850.015
    
    [GRAPHIC] [TIFF OMITTED] T3850.016
    
    [GRAPHIC] [TIFF OMITTED] T3850.017
    
    [GRAPHIC] [TIFF OMITTED] T3850.018
    
    [GRAPHIC] [TIFF OMITTED] T3850.019
    
    [GRAPHIC] [TIFF OMITTED] T3850.020
    
    [GRAPHIC] [TIFF OMITTED] T3850.021
    
    [GRAPHIC] [TIFF OMITTED] T3850.022
    
    [GRAPHIC] [TIFF OMITTED] T3850.023
    
    [GRAPHIC] [TIFF OMITTED] T3850.024
    
    [GRAPHIC] [TIFF OMITTED] T3850.025
    
    [GRAPHIC] [TIFF OMITTED] T3850.026
    
    [GRAPHIC] [TIFF OMITTED] T3850.027
    
    [GRAPHIC] [TIFF OMITTED] T3850.028
    
    [GRAPHIC] [TIFF OMITTED] T3850.029
    
    Mr. Souder. Mr. Burton, did you have any opening statement?
    Mr. Burton. No, thank you, Mr. Chairman.
    Mr. Souder. I am going to do this a little differently. I 
have a whole series of policy questions, but I want to ask some 
particular questions about some basic research to lay out what 
your study focused on before I get into a few of those broader 
questions.
    How long did you conduct your study, the GAO?
    Mr. Stana. About 10 months.
    Mr. Souder. About 10 months. And all along the southwest 
border?
    Mr. Stana. Yes, we visited field offices, ICE field offices 
and CBP offices all along the southwest border.
    Mr. Souder. Did you go into Mexico at all?
    Mr. Stana. No, we did not.
    Mr. Souder. Did you investigate, do any research on what 
was happening on the side of Mexico and Central America?
    Mr. Stana. We read reports and other publications about 
what is happening on the Mexican side of the border, but we did 
not go over and pursue those issues.
    Mr. Souder. Anything on Florida?
    Mr. Stana. No.
    Mr. Souder. Was this only southwest border?
    Mr. Stana. Southwest border, and that was mainly because 
the ICE strategy seemed to be focusing on the southwest border.
    Mr. Souder. Anything regarding airports or seaports, or was 
it mostly the land border?
    Mr. Stana. Mostly land border. But the same investigative 
issues would occur whether at land, sea or airports.
    Mr. Souder. It would also apply to the Canadian border in 
Florida in the case of civil forfeitures.
    Mr. Stana. That is correct.
    Mr. Souder. In other words, in the policies--but you 
focused predominantly on the land border. Did you notice any 
major differences in how organizations as opposed to 
individuals came across, or did you see whether the Department 
of Homeland Security had such information, between those who 
came across at legitimate border crossings as opposed to in 
between the borders?
    Mr. Stana. Well, I think in terms of how people get to use 
a smuggler and get across the border, there is good news and 
there is bad news. The good news is that there are enough 
interdiction resources on the southwest border now that using 
an alien smuggler is the preferred way to go, if you can afford 
one. The prices for using a smuggler are going up.
    The bad news is that by using a smuggler, you can often 
defeat or overcome the resources on the southwest border and 
gain entry into the United States, mostly between ports of 
entry.
    Mr. Souder. My impression, and I want to see if you believe 
this is accurate, is that at San Ysidro in March they said that 
when I said, since you have no effective penalties unless 
somebody has other criminal activities for holding anyone you 
catch who crosses illegally, and supposedly we catch 20 
percent, roughly, in other words at El Paso 2 years ago, this 
subcommittee held a hearing and they said after 17 times they 
detained them. The last time we were in El Paso they said they 
no longer have that policy; they are no longer detained at all. 
If they are from Mexico they go back to Mexico if they have a 
clean criminal record other than that.
    I said, well, then why does anybody go, if you are just 
sent back, why don't you just keep coming back? They said, 
well, it is inefficient for criminal smuggling organizations to 
use the border because if we are catching 20 percent and they 
are bringing 20 people across, 2 of them get caught, they have 
to wait a day across the other side of the border for those 2 
people to get through the next day, and one of them might get 
caught again, meaning they would have to hold up the whole 
group if they are headed to Indiana, my home State, or 
somewhere.
    That suggests that those organizations might be operating 
at a higher percent between the borders. Why wouldn't that kind 
of problem be true of almost everybody, every criminal 
organization, smuggling organization moving through a 
legitimate point of entry?
    Mr. Stana. Well, first off, I don't know if that 20 percent 
is caught en masse. People just group together without a 
smuggler trying to cross the border and they get caught. I 
suspect that there is a lot of that. So I don't know where that 
20 percent comes from, first point.
    Mr. Souder. My understanding is, we have had witnesses that 
estimate basically one of five illegals coming across is caught 
at some point. That does not mean that if you take that 
percentage, it was not talking about organizations.
    Mr. Stana. Right, and my only point is, I don't know if 
that 20 percent of the population is not using a smuggler. 
Because those who use smugglers can have the benefit of having 
a very sophisticated organization, cell phones, global 
positioning and so on. In talking with the border patrol, they 
feel that in some ways, the sophistication of that equipment is 
such that it is just difficult for them to do their work.
    But if your basic point is where are our resources, and are 
they placed in the correct positions to combat and defeat the 
smuggling operations, well, we have 10,000 people on the 
southwest border, on the Border Patrol between the ports of 
entry. Of course, you divide that by the shifts, and you take 
some out for administrative tax and so on. There is a good 
number of people down there devoted to this activity.
    My concern is that what the southwest border strategy did, 
in effect, it started with San Diego and El Paso, and got 
control of the border in those locations, spread along the Rio 
Grande, if you can picture it along Texas, but in effect 
funneling folks into Arizona. So Arizona, I think Mr. Cummings 
mentioned that Arizona is the prime location to bring people 
through. But it is not because it is difficult for law 
enforcement. It is, but the reason they funnel people into 
Arizona, the Border Patrol, is that they felt they had the 
tactical advantage, long, flat terrain, easy to use helicopters 
for interdiction and apprehension and so on.
    Now, having said that, it is also easier for a smuggler to 
identify where the resources are posted. This happens often. I 
was observing night operations last October, for example, in 
the Tucson sector. If you can imagine, you have been down 
there, you can imagine the ridges along the mountains and the 
trails of people trying to get through after dark. It is almost 
like ants up an anthill, so to speak. I know we are talking 
about human beings, maybe that is not the best analogy.
    But all this goes to, the point I am trying to make here is 
that it is difficult to position assets in one way to defeat 
all methods of smuggling. The Border Patrol has a multi-layered 
approach, patrol behind the border, check points, major regress 
routes from the border, they do what they can.
    The bigger, I think, and this gets to the prioritization 
issue, is we put an awful lot of people on the line of 
scrimmage, so to speak, with 10,000 Border Patrol. Where is the 
interior enforcement? Is that keeping pace? Once you penetrate 
the line of scrimmage, are you going to score a touchdown?
    Mr. Souder. Well, let me ask a couple more questions about 
your report directly. Did you see, or did you investigate, my 
assumption is if you are coming in between points of entry you 
pretty much are going to use a smuggling organization. You can 
maybe cross on your own and go through at a point of entry.
    But if you are in between, you pretty much have to. Did you 
investigate or has anybody investigated where the vehicles are, 
are there certain dealers that sell vehicles to smugglers? Is 
there a pattern of looking at the vehicles? Clearly vehicles 
are waiting as they come up through. They are clearly 
coordinated. Anybody who has been down there knows those 
vehicles are there.
    We focus so much on individual deportation, what about the 
groups? Have there been studies on the vehicles?
    Mr. Stana. If you wanted to seek the services of a 
smuggler, if you go to the near U.S. border Mexican towns, it 
is not too hard to find one. Some cross the border on foot, and 
that is a good number of them, because we did set up fencing 
and certain brims and barriers to try to stop vehicular 
traffic. But some still come across in trucks, or they say, get 
3 miles inside on this route, I will meet you there or one of 
my partners will meet you there and take you the rest of the 
way.
    But the Border Patrol and the Federal Government do have 
the legal authority to seize trucks involved in the smuggling. 
So either we can seize them, they get through, or they are 
abandoned.
    Mr. Souder. Do they check to see whether any of those are 
coordinated? What I want to know is, in a normal criminal 
investigation, what I assume is there are like travel agencies 
that are functioning here. The question is, has there been any 
kind of study or do we need to request such a study of looking 
at, are there patterns? In my district we could not survive, 
bluntly put, without the illegals coming in. They are a 
critical part of our manufacturing. So clearly, to get them 
there, there is a system that is working. They have taken down 
multiple green card manufacturing places.
    So one of my questions is, has there been any investigation 
of who is making the green cards that they should up with? We 
have huge thefts of Social Security numbers that are on these 
green cards. Is anybody doing an investigation of that? You 
mentioned financial.
    Also, there has to be somebody putting together a job 
market list that says, up in Elkhart, IN, they need people in 
the RV industry. If you come in, here's how you can be put up, 
here is how we will get the vehicle there. Because people 
aren't just going to wander across and think of coming to 
Elkhart, IN.
    The question is, are we breaking down the components like 
we would any other, if you broke down travel, you would look 
at, where is this travel agency, who do they book with, what 
airlines. Are we doing that? Have we studied that?
    Mr. Stana. We haven't studied that yet, although we are in 
negotiations with the House Judiciary Committee to undertake 
such a study. If your subcommittee would be interested in 
signing onto that, you might consult with staff and members 
over there.
    But having said that, part of contract smuggling can 
involve employment, it can involve getting you to a certain 
destination through overnights at a series of stash houses, it 
can involve a number of things, giving you a full set of 
documentation that looks pretty tamper-proof. A while ago, on 
an identity theft review, I happened to be in the Dallas office 
of the Secret Service.
    Within 15 minutes, a person who had only worked there for a 
week had made me a Nebraska driver's license and a Marine 
Midland Bank credit card which looked pretty good to me. I'm 
sure a bartender could probably pick them out as a phony, 
somebody who looks at those things all the time. But for just a 
casual individual like you or me, they are pretty good 
documents.
    And I am told that you can go to Adams Morgan in the 
District and buy documents like that as well for a modest 
amount of money. So I don't know if document production and 
phony document production is only something that's done in 
connection with a formal alien smuggling organization. It can 
be bought almost anywhere.
    Mr. Souder. Thank you. Mr. Cummings.
    Mr. Cummings. I just want to pick up where you just left 
off. Travel document fraud and money laundering crimes are 
inextricably linked with smuggling. But they also are distinct 
crimes and may involve different culprits and fall under the 
jurisdiction of different Federal agencies, would you agree?
    Mr. Stana. Yes.
    Mr. Cummings. Could you discuss in general the importance 
of the interagency cooperation and information sharing with 
regard to anti-smuggling efforts, and in particular, the roles 
and effectiveness of the Migrant Smuggling and Trafficking 
Interagency Working Group and the Human Smuggling and 
Trafficking Center?
    Mr. Stana. Those two organizations, those two task forces, 
are key components of an effective Federal response to alien 
smuggling. They are sort of overarching organizations, if you 
will, that marshal and direct the operations of component 
agencies. Now, ICE is a big player in the first you mentioned, 
the Interagency Working Group. In fact, our information is that 
about 15 or so kingpins of smuggling organizations have been 
brought down through the efforts of that working group with ICE 
in control of most of those investigations. So we are not 
talking about ICE working independently and not in connection, 
but more of that needs to be done.
    The Human Smuggling and Trafficking Group, the committee, 
is less mature. It really only got underway last summer, and 
they are not fully staffed. So I think we can expect more out 
of that group than we are getting right now.
    But those kinds of organizations are key. And when we talk 
about priorities, 7 percent, is that the right number or the 
wrong number? But these kinds of organizations, if properly 
run, and if properly staffed by component agencies, can 
overcome some of these resource constraints and bring to bear a 
whole Federal approach and the full brunt of the Federal 
Government to combat this crime.
    Mr. Cummings. When you were talking about Arizona, I was 
just wondering, did you look into whether or not there was 
sufficient Border Patrol? Not just Arizona, but the southwest 
border.
    Mr. Stana. That was not part of this particular review. But 
we have looked at the numbers on the southwest border in 
connection with other reviews, and the difficulty that the 
Border Patrol has had over the years in recruiting and 
retaining people to work in those jobs.
    Mr. Cummings. You talked about forfeiture, and dealing with 
the forfeiture laws. How would that help you overall?
    Mr. Stana. The Federal Government has this power in drug 
trafficking investigations. We are talking about civil 
forfeiture authority. For example, if I am a landlord, and I 
rent a house or an apartment building or something to you, I 
would assume that you are going to live there and just go about 
your business, non-criminal business, every day. But as the 
owner of that, I have some responsibility to know what goes on 
on my property.
    If I visit my property from time to time and I see bars on 
the windows and doors and I see lots of comings and goings and 
strange things happening there, it is incumbent on me as a 
landlord to notify the authorities that maybe something illegal 
is going on there. Now, if that's a stash house and through a 
criminal prosecution we take down an organization that used 
that stash house, you cannot now under civil authority go after 
the landlord who was an enabler in that whole process.
    So the kind of authority that Justice would be seeking 
would be to extend the same kinds of laws and protections 
afforded the landlords in drug trafficking investigations to 
alien smuggling investigations. It is another way of attacking 
the whole totality of the crime.
    Mr. Cummings. So you see that as a way of getting--it is 
not just what is forfeited, but you see that as a sort of a 
preventive measure?
    Mr. Stana. Well, it is not preventive. It is a way of 
taking an asset out of play that is used by a smuggling 
organization.
    In our report, we have pictures on the highlights page of 
individuals in a stash house waiting for the next leg of the 
journey or waiting, they are there waiting for payment and the 
smugglers won't let them out of the house. If you can take that 
out of play, take that out of the whole organization, it makes 
it much more difficult to smuggle aliens into the United 
States.
    Mr. Souder. Will the gentleman yield?
    Mr. Cummings. Yes, surely.
    Mr. Souder. In Fort Wayne, we have a crack house ordinance. 
They are a lot of times the abandoned homes and you can seize 
it if the property owner does not supervise his property. Is 
that similar to what you are saying?
    Mr. Stana. It's similar to that. But some of these stash 
houses are located in well-to-do neighborhoods, depending on 
who you are trying to smuggle. If you are trying to smuggle the 
garden variety guest worker, I suppose you could say they would 
be in certain areas. But if you are a criminal organization 
looking to smuggle a different type of person, which is the 
concern, I think, of the 9/11 Commission, then you don't just 
look to bad neighborhoods for stash houses. You could look to 
other places, places that for example, and I believe in one of 
the cases we found, they had property that was nearby a country 
club that was used as a stash house.
    So yes, it is the same principle.
    Mr. Cummings. We had a hearing not very long ago on this 
Minute Man situation. It was very interesting that they, did 
you get into that at all, the Minute people?
    Mr. Stana. Not on this particular assignment. I don't know 
much more about the Minute Men than what I read in the paper 
and the studies.
    Mr. Cummings. OK. Because what we found is that they seemed 
like they were just the neighborhood watch--that is what they 
claimed--with guns.
    Mr. Stana. I don't know about the gun part, but they struck 
me as almost human sensors. They saw aliens coming across the 
border illegally and they notified the authorities, the same as 
sensors do.
    Mr. Cummings. So what is it that you need, other than this 
forfeiture authority, that would help you do your job? Not to 
help you do your job, but to make it more effective for us to 
deal with this border situation? In other words, your 
recommendations beyond the forfeiture provisions are what, if 
any?
    Mr. Stana. In the report we made two recommendations. One 
dealt with the tracking mechanism, so that if ICE was not going 
to do anything with the referral, at least notify CBP so that 
they can, or if ICE does do something with the referral, that 
they can notify CBP of the types of referrals that they are 
interested in pursuing, and CBP can produce more of the same. 
So that was one of the recommendations.
    The other recommendation had to do with Justice preparing a 
civil forfeiture proposal for congressional consideration. 
Beyond that, and we did not get into this in too big of a way, 
it would seem to me that the possibilities presented by these 
interagency working groups would be an area for the Federal 
Government to put more interest and resources. Having this 
agency do one thing and that agency do another goes well as far 
as that jurisdiction goes.
    But to bring the full force of the FBI, the ATF, as well as 
INS, FinCEN and all the others, you can get some sort of a 
synergy going that helps with these investigations, taking down 
the larger ones.
    Mr. Cummings. Do we have in law the necessary tools to do 
what you just said? In other words, is this a situation where 
you have all these agencies out there doing their thing and 
would it take, I mean, could they just sort of come together, 
if the President said, look, guys, and ladies and gentlemen, 
let's work together and do this thing, or do we have a 
situation like we appeared to have had with the FBI and the CIA 
and you almost have to have a law and create this super czar 
type person to bring them all together?
    Mr. Stana. When you create a czar or a super type person to 
bring them all together, oftentimes you are fighting against 
things that aren't the authority to undertake investigation, 
and oftentimes you are trying to break down turf or just the 
organizational rivalries that sometimes need to be overcome.
    When these working groups work well together, it is usually 
because you have people on the working group who get along and 
are committed to the task. It is usually not a matter of having 
insufficient authority to pursue the crime.
    Mr. Cummings. But that takes somebody's leadership, to make 
that happen, though, right?
    Mr. Stana. Yes, it does, and to be fair to the agencies 
involved, they need to have sufficient resources to cover their 
own agency priorities as well.
    Mr. Cummings. But you are saying that we could probably be 
much more effective with regard to the borders if we had these 
agencies working closer together? Is that a fair statement?
    Mr. Stana. Yes. If you look at the results of the 
interagency working group, the information that you cited, 15 
kingpins of major smuggling organizations being brought down by 
that sort of effort, that goes beyond what we see in ICE Storm 
or some of the other anti-smuggling efforts that are only ICE's 
or only CBP's.
    So sure, if you can bring the full force of the Federal 
Government together in an appropriate way, it would help.
    Mr. Cummings. Thank you.
    Mr. Souder. Ms. Watson.
    Ms. Watson. I am going to try and do this in a hurry, 
because I have to leave in a few minutes. But No. 1, in the 
State of California, I was able to have a law passed that would 
fine an apartment owner for the assessed valuation of a unit if 
drugs and guns and so on are being stashed or sold from that 
particular facility, that particular apartment. So we have that 
on the books.
    I mentioned to you about the LAX Initiative, and I also 
mentioned to you about the ICE Storm over in Arizona, where 
they picked up 304 weapons. I have a problem that is ongoing 
now, and I represent Los Angeles, CA. Those of us from 
California see the illegal immigration over the border 
constantly.
    What would stop a terrorist who probably has a profile that 
matches Mexicans' profile, in terms of looks and all? I have 
reported an illegal gun shop right in the center of my district 
to AFT and to Customs. I found out that the gun shop sells guns 
to foreign governments, to the military and to LAPD. Fine. But 
we can't get them closed down. For the last 15 years, we had a 
hearing, they were in violation, they are non-complaint. What 
is going to stop someone coming in, putting a gun to the head 
of the owner and taking all those weapons out and using them, 
the terrorists using them?
    I can't get the cooperation from Customs. They are dragging 
their feet. I am being stonewalled. I don't know who they are 
supplying weapons to. They don't have a conditional use permit. 
And I was told at ATF that they, if they didn't comply with the 
local provisions, they would not have their license renewed.
    Now, they were supposed to be out of there by March 5th, 
and I believe that is about 4 or 5 months ago. I cannot get any 
of these Federal departments to move. I have called, I have 
written, I have even recorded their conversations.
    So my frustration is, we see these things every day on the 
streets. I cannot get the cooperation of our Federal 
departments.
    Can you help me with trying to No. 1, have that gun shop 
comply with the law? No. 2, sharing information with 
congressional Members, why is there that kind of block? Why is 
it they won't let us know what is going on? And I am sure this 
particular person is well connected here in Washington and 
locally.
    Mr. Stana. I can understand your concern, because having 
that kind of an operation in your district or in your city 
would certainly be a cause for alarm. At GAO, we have studied 
those kinds of gun shops and found that oftentimes they are 
linked to crime.
    Now, I don't know----
    Ms. Watson. This one is.
    Mr. Stana. Yes, I don't know the particular facts and 
circumstances of the case that you mention. You talked in your 
oral statement about California being one of the largest, if 
not the largest destinations----
    Ms. Watson. Exactly.
    Mr. Stana [continuing]. Or inhabitance of illegal aliens. I 
can also tell you, and it is not a source of comfort, I am 
sure, that it is the leading location for criminal aliens, 
Arizona, California and Texas. Each one of these criminal 
aliens, and that is another priority of ICE that maybe is 
perhaps understaffed, in the study that we did, we found 8 
arrests and 13 offenses, and they are still on the street.
    So I understand your concern. I don't know what can be done 
to rectify it or at least address it. But it would seem to me 
that you are calling all the right locations to get some 
action. It is just a shame that nothing is happening.
    Ms. Watson. Well, I just want to say that our Chair has 
been very sensitive to these issues. I can't thank him enough, 
because I have sat in these hearings. I was so frustrated this 
morning at 4:51 a.m., I just wake up with these thoughts, and I 
said, well, I am going to see if we can have a congressional 
hearing, if I can't get something happening at the local level, 
and I can't get the Federal departments at least sharing 
information with me, maybe the Chair, if I give you the 
background information, would call an oversight hearing. I want 
to know why Customs and Immigration will not respond to my 
queries and will not respond to the fact that the gun shop is 
operating illegally according to the provisions of the 
municipal laws.
    So I will share that with you and with that, thank you so 
much for your report. We will followup with you, Mr. Chairman.
    Mr. Souder. Thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you.
    It is always interesting to me when we talk about criminal 
smuggling, because I think that like the immigration debate in 
general, everybody has these wonderful ideas for these 
proposals, but sometimes the proposals put the cart before the 
horse. By that I mean, some people think that by simply 
throwing money at border security or granting law enforcement 
increased powers or making the penalties for illegal 
immigration or smuggling more severe, that is going to wipe out 
those problems.
    What we find oftentimes is that despite increasingly 
stiffer and stiffer penalties, the incidences do not in fact 
drop. And one of the issues that I am interested in exploring 
with you, Mr. Stana, is the idea that in order to eliminate 
sort of the incentive for criminal smuggling, we need to sort 
of eliminate the incentive for illegal border crossing.
    One of the questions that I have for you is, when the GAO 
completed its report on combating alien smuggling, did you look 
at how a change in immigration law might reduce alien smuggling 
and eliminate the effectiveness of criminal smuggling 
organizations?
    Mr. Stana. No, if you are talking about neutralizing the 
need for a smuggler or neutralizing the need for an illegal 
approach to immigration, no, that wasn't part of our scope.
    Ms. Sanchez. So you didn't look at the idea that, for 
example, if there were a labor program which would allow 
workers from Mexico, which seems to be the primary spot, to 
temporarily enter the United States legally under work visas, 
that the need for illegal border crossings might actually 
decrease?
    Mr. Stana. No, we didn't look at that, although I am aware 
of the issue. I think Mr. Souder mentioned in his question just 
a few minutes ago about the realization that many people who 
work in the United States and work productively and contribute 
in any number of ways may be here illegally.
    We did not look at the possibility of bringing a guest 
worker program online as a way of taking smugglers out of 
business, or lessening the need for any sort of a work site 
enforcement program.
    Ms. Sanchez. Do you think that perhaps if there were some 
kind of comprehensive immigration reform that would make it 
easier for workers who were purely seeking employment 
opportunities to come across legally and be part of a system, 
that might decrease the incidence of smuggling of people?
    Mr. Stana. Well, any kind of a program like what you are 
suggesting that would bring order to the movement of people 
across the borders would obviously lessen the need for 
smuggling, or if that particular individual was not part of the 
few who were granted work visas or some sort of status to come 
into the country, it may increase it. So I am not sure exactly 
which direction that would go.
    I do know that the jobs magnet is really the driver here in 
bringing people into the country. So addressing that in some 
sort of a way through either a guest worker program or other 
way is something that's under consideration.
    Ms. Sanchez. That's my thinking on the matters, that if you 
could put them into a regular process where it could be 
regulated and reducing, for perhaps not all, but a large chunk 
of the people who are crossing illegally, that might allow CBP 
and ICE to focus their efforts on the smaller pool of people 
that are----
    Mr. Stana. Right, from a national security standpoint, any 
way that you can reduce the size of the haystack that you are 
looking for that needle, that terrorist, any way you can do 
that, it is going to serve the purposes of national security. 
It really wasn't part of our study to determine what effect any 
kind of a guest worker program would have on smuggling or our 
efforts to combat it.
    Ms. Sanchez. One last quick question for you. The GAO 
report raised concerns about how CBP and ICE are collaborating 
on the alien smuggling issue. I also sit on the Immigration 
Subcommittee of the Judiciary Committee. We have held hearings 
on alien smuggling as well.
    One of the concerns that was raised was about interagency 
cooperation. One of the primary concerns that we had was that 
the State Department has primary responsibility for dealing 
with the issue of alien smuggling abroad, which is where 
typically the smugglers enter into the contracts with the folks 
that are trying to come across and be smuggled.
    What recommendations if any would you have for improving 
the cooperation between CBP, ICE and the Department of State to 
deter those kinds of interactions from happening prior to when 
it actually becomes an issue of concern at the border?
    Mr. Stana. The Department of State is working with the 
Department of Justice on the human smuggling and trafficking 
team. That is one avenue for State to participate in these 
kinds of investigations and address it that way.
    The other way is, and State has negotiated a number of 
these mutual legal assistance treaties [MLATs]. They are rarely 
used, perhaps for a good reason, but they are rarely used in 
these alien smuggling investigations because oftentimes it is 
just easier to go to the law enforcement authorities on the 
other side of the border, whether it is Mexico or Canada or 
wherever, to get the assistance that they need in these 
investigations. So perhaps State in those roles could enhance 
the overall Government effort to combat alien smuggling.
    But State has not been a major player in anti-smuggling 
investigations. Now, human trafficking is a different concern. 
You know the distinction between the two. With human 
trafficking, the Department of State publishes a report every 
year on efforts and sanctions. It is much easier to get 
international cooperation in human trafficking, because of the 
victimization of the individuals involved.
    Ms. Sanchez. Thank you very much.
    Mr. Souder. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Actually, I was frankly surprised to learn about this gap 
in the law that one couldn't seize the real property, the stash 
house, as it were. It is so obvious. It really does speak to 
our lack of real strategy at the border. Because this might 
have been the first thing you come to. I suspect if these 
houses cannot be seized, let me just ask you while we are 
there, does that mean that once they are discovered they are at 
least vacated, they are abandoned?
    Mr. Stana. We are talking about stash houses that are not 
owned by the criminal organization that is doing the smuggling, 
a stash house that is rented from a landlord who may or may not 
know what is going on inside the house.
    But you raised another point, which I think is really 
important, and I think we probably will get to it so this is a 
good time to talk about it anyway. That is the lack of a 
strategic plan. We have a mission for homeland security and we 
have a lot of people that work every day trying to do their 
best to serve the mission. But without a strategic plan, that 
interprets the mission and gives guidance to the people to do 
their jobs, you are just not sure that people are focusing 
their efforts on the right things, or the things with the 
highest priority.
    With respect to stash houses, just getting back to that for 
a second, this authority was given for drug investigations, 
civil seizures, back in the year 2000, I believe. I am not 
exactly sure why alien smuggling organizations were not 
included with drug trafficking organizations. I don't know if 
it was an oversight or if it was intentionally dropped. But the 
Justice people feel that they have the justification to go 
forward with this proposal and it is very important that it 
would help them with the smuggling investigations. It just 
takes a major asset out of the equation.
    Ms. Norton. Did the 9/11 Commission recognize this, is this 
gap just lying there, do you know?
    Mr. Stana. I am not sure that the 9/11 Commission 
specifically addressed the stash house issue. But they were 
very concerned about the ability of a terrorist or someone 
belonging to a criminal enterprise using a smuggling 
organization to gain entry into the United States.
    Ms. Norton. Well, seizing a real property is one thing, but 
again, assuming one knows that a stash house exists, is the law 
powerless to do anything at the moment? Does the stash house 
continue to operate once it becomes a known stash house?
    Mr. Stana. Once the smuggling organization is brought down, 
I would imagine that the stash house would be vacated. What we 
are talking about here is making sure that landlords, and these 
are landlords who know what is going on, or they know that 
something is going on. It is not the innocent landlords. There 
are provisions in law to protect innocent landlords. And there 
should be. But these are landlords who knowingly either turn a 
blind eye or understand what is going on in their stash houses, 
so it makes them liable for the actions of people using their 
house.
    Ms. Norton. I am interested in, well, the Justice 
Department of course had the authority for drug smuggling, 
because that is what the danger was, and 4 years after 
September 11th, we haven't woken up to human smuggling and what 
it may mean in terms of its crossover effects. We know that the 
lion's share of this human smuggling is exploiting people 
looking for jobs. They will mostly be people from Central and 
Latin America.
    I wonder how hard or easy you think it would be to simply 
cross over, perhaps an organization who wanted to set up shop 
smuggling people in to do security harm of one kind or another 
to the United States? Do you think that would, given the state 
of the law and the absence of a strategic plan, be just as easy 
to do as smuggling human beings over to work in people's 
gardens or to do labor?
    Mr. Stana. Any type of individual, whether it is a 
dangerous individual or just an economic migrant, can and have 
been smuggled into the country. So the idea here is to use 
whatever asset or law we have at our disposal to not only get 
to the people who are most immediately involved with the 
episode, but to work up the chain to get the kingpins, so that 
you can take down the broader organization.
    One thing that the 9/11 Commission focused on, you 
mentioned that, is that one by one, we seem to be addressing a 
number of these vulnerabilities that we identified through 
investigation of the September 11th incident, the 
vulnerabilities that existed, whether it is the loose visa laws 
or if it is not checking adequately at airports for bag 
contents, whatever. The fact that they focused on smuggling 
tells you that in addition to those vulnerabilities, this is a 
vulnerability that has to be addressed from that aspect, that 
this isn't anything that is out of bounds for a terrorist.
    Admittedly, now that we are focusing more on regular Border 
Patrol operations, apprehensions are going up again, there are 
more people being put to bear, like everyday economic migrants, 
terrorists would need to use the services of a smuggler. I 
think it was just last month that there were some Middle 
Eastern men stopped by Mexican authorities in Mexico, trying to 
get across the border.
    So we know that these opportunities exist, we know that 
they are known to terrorist organizations and that we need to 
address those with our own law enforcement.
    Ms. Norton. I don't know what is taking them so long to get 
into this business. I think it is absolutely terrifying.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    I have a series of different questions I want to make sure 
I ask for the record. According to your report, about 7 percent 
of ICE resource hours are devoted to alien smuggling. One of 
the fundamental questions is, is this resource driven or due to 
an agency prioritization. One of the questions is a followup 
with this, despite that it is only 7 percent, Federal law 
enforcement officers in Arizona told congressional staffers 
that ICE no longer participates in drug interdiction in order 
to work alien smuggling cases.
    How can it be true that only 7 percent of the resources are 
devoted to alien smuggling cases, yet they are telling staffers 
of this committee and other committees that they have diverted 
from narcotics because they are doing alien smuggling.
    Mr. Stana. Well, both may be true if it is episodic. In 
other words, if in Arizona they are devoting themselves to 
alien smuggling but not in Montana or upper Michigan.
    Mr. Souder. So do you think that figures are significantly 
higher in Arizona?
    Mr. Stana. It may be. Because the main smuggling corridors 
are through Arizona right now. As the border is controlled in 
other locations, as I mentioned earlier, the funnel of aliens, 
illegal aliens into the United States seems to have come 
through Arizona more than anywhere else.
    Mr. Souder. A technical question, because you do a report, 
but we are dealing with this on a day to day basis. When you 
arrived at the 7 percent number, can you give us how you got 
that number, so that we can continue to ask them? Because 
presumably if they can give you a 7 percent number, they can 
give us a number by zone.
    Mr. Stana. They should be able to do that. These were 
numbers generated by ICE through their agent work hours system 
with the 5,000 agents, and you multiply that by the number of 
hours in a year, take out training and vacations and so on, you 
arrive at 7 percent.
    I would note also that there is another 2 percent added to 
that is devoted to human trafficking. So if you put the two 
together, it is 9 percent. I would consider that probably a 
lower limit, but probably more accurate than the 29 percent 
that ICE claimed that it could be as high as, because they 
brought in some drug trafficking time and some financial crime 
time and so on. But 7 to 9 percent is something we know about 
and are pretty confident in. Those are ICE numbers.
    Mr. Souder. Thank you.
    A CBP spokesman told a Government executive in May that 
``Mexican nationals caught illegally trying to enter the 
country are bused back to the border if they do not have a 
criminal record. Other than Mexicans, however, are sent to ICE 
detention centers where they are released into the U.S. public 
if they do not have a felony conviction and do not pose a 
threat to national security. ICE is required by law to release 
illegal aliens who pose no threat. Those migrants are given 
notice to appear in court. Border Patrol agents call it a 
notice to disappear.''
    I have heard this at multiple border hearings. Congressman 
Reyes has been bringing this up about those other than 
Mexicans. What can be done to reverse the trend of having them 
released into society? Second, do you know if they are screened 
for anything other than a felony conviction? And why are OTMs 
held until repatriated? I saw several caught from Brazil that 
were going to be repatriated, but that presumes they are going 
to show up for their hearing.
    Mr. Stana. Yes, much of this hinges upon the availability 
of detention space. That space just is not there, particularly 
in the southwest border.
    I have heard those stories, too, and actually have seen it. 
They will bring in people apprehended crossing the border, they 
will identify them, to check to see if there are any other 
criminal violations, and there are stories there that we have 
heard of and seen where the ident was not proof positive 
either. So there is a concern there.
    But they do identify them and if they, like in your 
example, if it is not their 17th time, they will take them to 
the border and tell them to go home, sometimes to see them 
another day.
    With respect to OTMs, there is just no space in the 
detention facilities to hold them, so they will give them a 
notice to appear at a certain proceeding for deportation and 
release them to the general population.
    Mr. Souder. Isn't this ironically discriminatory against 
Mexicans?
    Mr. Stana. Well, I think, I don't know if I would use that 
term. What I would say is, what kind of protection is afforded 
to people? I mean, America is a great place to live. Someone 
who comes from Brazil, for example, all the way to the 
southwest border and gets caught has a choice to make: do I 
want to show up and be deported or do I want to blend in with 
the population, knowing that chances are I am never going to 
get caught, provided I don't do anything stupid.
    Well, the fact of the matter is, you are going to stay. 
This is a great place to live, you can find employment, you can 
wash your car with clean water, lots of things that are great 
here. So again, it all hinges on the availability of detention 
space.
    Mr. Souder. From a non-illegal immigration question, from a 
non-narcotics question, but from a homeland security angle, 
would you say that if you were going to release somebody into 
the United States, wherein they potentially are a sleeper cell 
or whatever, that you would be more concerned about the OTMs 
than you would about the others?
    Mr. Stana. I think you are highlighting a potential 
vulnerability here. Certainly if you don't know someone, 
because they have no criminal history, that does not 
necessarily say that they pose no risk to our national security 
or our well-being.
    Mr. Souder. While we worry that Mexicans in fact could 
become the mules or carriers for biological-chemical type 
things, just because so many come across, and if we don't deal 
with the OHIST Act, that it is impossible to find and they may 
learn to use mules. Do you know any, in studying homeland 
security, I certainly don't, being on the committee, of anybody 
who is a Mexican risk on our homeland security radar. They are 
all pretty much OTMs.
    Mr. Stana. I don't have any basis to say one is more 
dangerous than another. I think it is an individual by 
individual thing.
    Mr. Souder. Except that we have, we keep data by countries 
of interest and persons of interest.
    Mr. Stana. Yes.
    Mr. Souder. I think it is fairly safe to say that persons 
of interest are skewed to OTMs. I think it is very safe and 
accurate to say that the countries of interest, none of them 
are Mexico. It doesn't mean that people are not going to hide 
in Mexico, that we are not going to see that pattern developing 
because of the ease if we don't deal with our immigration 
question.
    But the irony here is that we seem to be weaker on OTM than 
we are on Mexico. Because there at least if we catch a small 
percentage, we send them back. They come back the next day in 
many cases, but at least it is a strategy.
    Mr. Stana. Yes, I didn't mean to imply that OTMs are not 
dangerous or that Mexicans are.
    Mr. Souder. And most OTMs are in fact not dangerous. I want 
to say that for the record, and you are pointing that out, too. 
Most people who come in from anywhere for immigration are not 
coming here for terrorist purposes.
    Mr. Stana. Right.
    Mr. Souder. The question is, just release people, then 
totally losing track of them, where there are OTMs coming 
across the Mexican border, which is itself particularly, when 
we were down at San Ysidro and the Texas border earlier this 
year, in one 30-day period they had 128 they caught who were 
from countries of interest. I think it was 18 persons of 
interest in just 30 days at San Ysidro.
    In the homeland security question, unless we can address 
this type of question, who is smuggling these people in, and 
the Homeland Security Department testified in front of this 
subcommittee that it was $8,000 to $12,000 at that point, I 
think it is higher now, was a guaranteed 7-day into the United 
States or money back for a Mexican, $30,000 to $40,000 for 
somebody from a country of interest, predominantly in one 
central section of the border. But they testified in an open 
hearing, a Homeland Security hearing, it was not this 
committee, it was Homeland Security, that in fact $30,000 to 
$40,000 will guarantee you the food, overnight, passages, 
placement, into the United States or your money back.
    Now, we have a huge problem here, and obviously the risk 
level is being reflected in the price level. But if you get in 
and get caught, all you have to do is show up again. Which 
means that the OTMs that are willing to pay that probably are 
even a higher risk, because they may not make the first felony 
screening or the persons of interest screening.
    Mr. Stana. Yes, I understand your point. It is a good one. 
In fact, I have heard of fees as high as $60,000 to $80,000 
from the Far East. But there are as many ways to get in here as 
there are smuggling organizations.
    But the vulnerability that you discuss here, if you are an 
OTM you are going to be released pending notice to appear, is a 
concern, yes.
    Mr. Souder. The Border Patrol told congressional staffers 
that there are more smugglers prosecuted under 8 U.S.C. 1325, 
improper entry by an alien, than 8 U.S.C. 1324, bringing in and 
harboring certain aliens. You cited in your report 2,400 
convictions under the bringing in and harboring. Did you 
investigate the other category, which would be improper entry? 
I presume that number is the bulk of it.
    Mr. Burton. Yes, we reported the 1324 and have a footnote 
in reference to that. There may be prosecution under other 
statutes, including illegal re-entry, document fraud, that type 
of thing.
    Mr. Souder. But you didn't study that?
    Mr. Burton. No.
    Mr. Stana. Do you believe it would be useful to have that 
data?
    Mr. Burton. I think so. Did you report, Rich, on criminal 
aliens, have that?
    Mr. Stana. We issued a report on criminal aliens in the 
United States about 2 months ago. I can't recall off the top of 
my head whether we had that figure, but I can look and see.
    Mr. Souder. One thing I would appreciate after the hearing, 
because we will followup with the Judiciary requests and also I 
will talk to Chairman Lundgren at Homeland Security. Does it 
help if it is a committee request to you, to get it prioritized 
for speed?
    Mr. Stana. The priority system works that a chair or 
ranking member of any committee or subcommittee has priority. 
But obviously the more interest that we see in a certain type 
of request, it could get staffed perhaps a little faster.
    Mr. Souder. If it comes from leadership, does it go faster?
    Mr. Stana. We do what we can.
    Mr. Souder. But could you work with our staff to see which 
report, often we each work in kind of our own isolated--we talk 
about the Federal Government executive branch being stovepiped, 
and then we stovepipe our committee process. But when we have 
the mic, we complain about the executive branch doing that.
    But could you help us work through which reports you have 
done fairly recently, so we can see these as a cluster? Second, 
where you see some gaps in between the different studies and 
also some of those studies that might need a refresher. Because 
we are systematically trying to look at what we can do. 
Obviously Fox News has really upped it every time the so-called 
Minute Men focus on this, and anybody who works with homeland 
security realizes that until you secure your borders you are 
not safe.
    We may try to deal with the, which I believe we need to, 
the immigration question, because unless you get that haystack 
reduced, when you are looking through 900,000 people, it is 
hard to find the risk. We may or may not be able to get that. 
But we are going to have the criminal smuggling organization 
question, which may even become more critical, if we in fact 
get the workers separated out.
    But to do this, we need to ask logical questions, where are 
the gaps and not each try to do this in isolation. But the 
leadership is trying to pull together a working group to try to 
address this, and we need to make sure we have good data.
    Mr. Stana. I would be happy to work with your staff on what 
we have done recently, where some of the gaps in information 
lie and what would be good areas to pursue.
    Mr. Souder. Do you know whether or not, when someone is 
prosecuted, there was a case of a smuggler having a car wreck 
and he was getting prosecuted for killing five people in 
murder, do you know if when they have somebody, if murder is a 
charge, whether they also charge them with smuggling? Do they 
do that? Did you look at any of that?
    Mr. Stana. It depends on the facts and circumstances of the 
case. We didn't look to see what systematic methods are used to 
bring different charges. In Appendix 5 in our report, we cite 
23 cases, I believe, the facts and circumstances of the case, a 
sentence is given. You can see there is just a range of 
outcomes.
    Mr. Souder. Does the Border Patrol have a good system to 
track their interviews of detained aliens? In other words, if 
they are just going to detain them, check them and release 
them, do they at least do any questioning about who brought 
them? Could something be addressed here where we say that if 
you are non-cooperative, that you are going to be detained and 
build some detention centers particularly for non-cooperative 
people?
    Mr. Stana. The results of those kinds of interviews should 
go into their intelligence system. I am not really sure what 
happens with that information once those interviews are 
finished. That might be a good area to pursue.
    Mr. Souder. Do you know whether the Border Patrol is 
supposed to be doing this, have you looked at that at all?
    Mr. Stana. No, we did not.
    Mr. Souder. Because it seems like they are sitting on a lot 
of information, and collecting that information would be very 
critical. Because it is difficult to establish what a smuggling 
organization is if you don't pool the data that you are getting 
to know--because then you are just dealing with isolated cases 
you are picking up, from what I see in narcotics, that we are 
gradually building backward.
    But there are obvious transportation networks. And all of a 
sudden we have learned that in the Yakima, Washington area, it 
was showing up in three different counties in my district, and 
it showed up in Nathan Deal's district. Backward we are piecing 
together for the executive branch that hey, you have a 
transportation system that looks like it is coming up from 
Mexico, bringing up Colombian heroin and cocaine, swapping for 
BC Bud, instead of coming through Juarez, they are going way 
over into Indiana and Georgia, you have a trucking company at 
work here.
    But unless you get enough data in to kind of establish 
where the networks are going, you are just randomly putting 
dots on a map and trying to figure out where the dotted lines 
are.
    Mr. Stana. I think you are bringing up a really good point. 
I think CBP and ICE folks who work in this area could tell 
stories along those lines. We know that this is a hub and this 
city is a transit point and the job market is here and those 
kinds of things. What I am not sure is happening is whether 
that information is turned into intelligence and sent out to 
the field so it is usable and actionable. That would be an 
interesting thing to pursue.
    Mr. Souder. Last, the National Security Council has a 
migrant smuggling and trafficking interagency working group. Do 
you know if they are coordinating with the Human Smuggling and 
Trafficking Center?
    Mr. Burton. I think there are some of the same players on 
both of those groups.
    Mr. Souder. But you don't know how much they cooperate or 
whether they are duplicative or whether either of them are 
doing much?
    Mr. Burton. Reportedly, they are not duplicative. As Rich 
mentioned earlier, the Human Smuggling and Trafficking Center, 
even though it was first announced as early as December 2000, I 
believe it was, it did not become operational, partly 
operational, until this past July. They are about halfway 
staffed. I think the total projection was about 24 or 25 staff. 
I think they are about halfway there at this point in time.
    Mr. Souder. Do you know whether this working group has 
forced ICE and CBP to cooperate more? They are not even passing 
the data inside the Department of Homeland Security. Can these 
working groups push that? They have the data.
    Mr. Burton. I think that is a role that those groups could 
play. I think the November 2004 Memorandum of Understanding 
between CBP and ICE is an important document. Hopefully, by 
this August, we will have a better feel for how that MOU is 
being implemented. Our understanding is that the first initial 
review of that MOU is scheduled to be completed this August. So 
that will be an important milestone as to how much progress has 
been made.
    Mr. Stana. If I can just add to that, this is a theme that 
has recurred in other reports we have done about coordinating 
efforts within Homeland Security among components. So it is 
going to be interesting to see what the results of this MOU 
are. When I heard about the MOU for the first time, it was in 
connection with terror financing investigations.
    One wonders why components, these are two sub-components 
within another sub-component, need an MOU to coordinate.
    Mr. Souder. That is what I was just going to say. One of 
the conclusions I have had, and don't feel forced to agree with 
me, I would really like to have your input, is that the split 
is not logical, that it just, it tried to separate something 
that is difficult to separate. Then they are trying to do 
memoranda of understanding inside divisions that are in the 
same agency.
    Mr. Stana. I put it in this context. INS was not performing 
to expectations for years, and discontent with INS was 
exacerbated in the mid to late 1990's, when so much did not 
seem to go right. In fact, in the homeland security legislation 
of a couple of years ago, the only agency that was specifically 
disbanded was the INS.
    So then the question became, well, how do we put these 
components together into an organization that can work? Well, 
when they put CBP together, they put together components that 
were pretty alike, or had a mission that was not too much 
different than the mission they had under their old agency. 
Border Patrol came over pretty much intact. Customs had its 
air, sea and land port operations. The former legacy INS folks 
that came over, they were pretty much doing many of the same 
duties or at the same locations as the Customs folks. So there 
was not much of a new learning process, if you will.
    But ICE was a different story. It had a completely 
different function, it had different pay systems, it had 
different administrative systems, it had a lot of things that 
had to be addressed.
    Given that, when ICE was set up, and began operations, it 
also was among the last components to get its administration in 
shape. By that I mean getting its mission statements, its 
strategic plans, which still are not out there yet, and getting 
its guidance to the field. It is sad but true that so many of 
the former INS people that landed in CBP feel a bit sorry for 
the folks that landed in ICE, because it has just been such a 
difficulty and challenge to bring it into one functioning 
organization, budget-wise, administration-wise, mission-wise 
and so on.
    Having said that, the context piece of this I want to bring 
out is, the temptation is to try to put the organizations back 
together again by function, immigration, customs, drugs, 
smuggling, and to make it easier from that standpoint. We found 
in looking at mergers, and this is a merger, if you will, in 
the public and private sector is it takes about 5 to 7 years 
for the dust to settle and for the cultures to become 
established. Here we are after 2\1/2\ years now, I don't think 
anybody is particularly satisfied with the progress of some of 
these components, but it is not unexpected that it is going to 
take a little bit longer.
    The other thing I would note is, one of the problems INS 
had in its last decade of existence was frequent 
reorganization. When they ran into problems, instead of 
creating managerial and organizational crosswalks between 
components, like you might expect here with CBP and ICE, and 
having a management that says, do it or else, they reorganized. 
It got to the point where there were three, four major 
reorganizations in INS during the 1990's, but the field folks 
did not understand completely what their new mission was, what 
they were supposed to do, what the guidance said and how they 
were supposed to approach their interrelations with other 
components within the same agency.
    So Congress can do what it wishes, and there are good 
arguments to bring it together. But I would also point out that 
frequent reorganizations sometimes, without knowing exactly why 
we are reorganizing or what we are trying to fix, can be 
counter-productive. So I do not know what the 2 S.R. result is 
going to be tomorrow from Secretary Chertoff. I have heard 
rumors, and I am sure you have, too.
    But while we are a little impatient with the progress, I 
think it is also fair to recognize that maybe a reorganization 
would not be a silver bullet.
    Mr. Souder. Let me, if I may, probe this a little bit 
further, because we are trying to figure out, and the reaction 
will be interesting, that while I find what you say very true 
and very interesting, there are a couple of other things. I 
think part of the problem with the INS question has to deal 
with, they are dealing with a much more politically explosive 
question where there are deep divisions. It is not so much 
necessarily traditional management type problems they are 
having, it is changing expectations of what the public wants, 
what the different President wants, what Congress wants, should 
they arrest, shouldn't they arrest, what will it do to the 
economy, what does it not do to the economy, what is the 
political reaction in a different community.
    It is not really going to be fixed in the immediate future, 
no matter where it is located. The question is, in trying, the 
difficulty of that is have they messed up things that were 
actually working and in fact endangered some of our--in the 
narcotics area, it has clearly been problematic. One of the 
agencies that was working was Air and Marine, and they are on a 
picket fence, so they do not fit either one. They do 
investigations, they are down in Colombia, they are in the 
water, they are inland. If you put them under CBP, they are a 
picket fence. If you put them under ICE, they are 
investigators.
    It has busted up the Shadow Wolves, because they want to 
line them on the picket fence. It has made it very difficult to 
deal with Akwesasne on the north border and develop a similar 
thing, because they want to patrol the Tohono O'odham, which is 
one of our huge vulnerabilities right now in Arizona, you can't 
really penetrate Indian nations with outside agents. You need 
them inside. They are not going to line up inside the 
reservation inside the border. They need to be able to patrol 
within.
    They either need some kind of accommodation inside CBP that 
changes a picket fence strategy. That is one element. So in 
narcotics, it has actually endangered some of what we are 
doing, which is probably even how the Coast Guard fits.
    But then second, this stovepiping of information, because 
the information is being collected at the CBP, and it is needed 
in the investigation section. If they don't have the same boss 
and they are not promoted, you don't have that. I am not saying 
immigration does not need to be a sub-category. But when you do 
not view yourselves as the same effort, they start standing up 
different, I mean, drug intelligence right now, not to mention 
immigration intelligence, is a disaster. Everybody wants their 
own little sub-part. The more divisions we get, the more sub-
parts we get.
    Mr. Stana. You are raising a lot of interesting points, and 
they go beyond, particularly in the drug area, beyond the 
issues that I have studied personally. But I do know in the 
formulation of DHS, one of the issues that was brought up time 
and again is how can we bring the asset groups together so that 
we do not have two air forces or three air forces, or why do we 
need five intelligence shops or those kinds of issues.
    There is always an up side and a down side to bringing 
things together. The up side is maybe there are some managerial 
or financial efficiencies. The down side is you are leaving 
behind missions, in many cases, that were effectively addressed 
and now we are going into something new.
    I guess my only point is, there are a number of ways to 
attack this problem, and I don't know that reorganizing is the 
only way or the best way. It is one way, and it is certainly 
within the prerogative of the Congress to go that way. I am 
just not sure in the totality of the situation that is the only 
way.
    Mr. Souder. I thank you very much for your testimony today. 
If you can help us kind of refine where our gaps are and where 
we need to go, because clearly it is potentially going to be 
one of the top two or three topics in the next year or two. It 
is clearly one of the major vulnerabilities in homeland 
security, in narcotics, the border is basically everything, not 
to mention immigration and work flow questions we have in our 
home States.
    Mr. Stana. Thank you very much, and we are glad to help out 
in any future effort you have planned.
    Mr. Souder. Thank you. With that, the subcommittee stands 
adjourned.
    [Note.--The Government Accountability Office report 
entitled, ``Combating Alien Smuggling, Opportunities Exist to 
Improve the Federal Response,'' may be found in subcommittee 
files, or at www.gao.gov.]
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
